                            August 13, 1997

MEMORANDUM FOR THE SECRETARY

FROM:               John C. Layton
                    Inspector General

SUBJECT:            INFORMATION: Report on "Audit of the
                    Contractor Incentive Programs at the
                    Rocky Flats Environmental Technology
                    Site"

BACKGROUND:

The Department of Energy (Department) is using performance-based
contracts to solve problems associated with its traditional
management and operating contracts. These performance-based
contracts are to include cost reduction incentive programs to
motivate contractors to reduce costs by employing innovative
practices. Additionally, these contracts are to encourage and
reward superior, results-oriented performance through a clearly
defined performance measure incentive program. The purpose of
this audit was to determine whether cost savings awards and
performance fees paid by the Rocky Flats Field Office (Rocky
Flats) were appropriate and justified.

DISCUSSION:

We found that contrary to the Department's guidance on cost
reduction incentives, Rocky Flats approved three Kaiser Hill
Company, LLC (Kaiser-Hill) cost reduction proposals that did not
meet basic criteria. These proposals, with approved savings of
about $16 million, were not innovative and generally did not
return savings to the Department. The proposals were approved
because Rocky Flats did not use the contract in conjunction with
Departmental guidance as a basis for accepting or rejecting the
proposals.

In addition, we found that the contract with Kaiser-Hill for the
operation of the Rocky Flats Site contained performance measures
which did not always include clearly defined criteria, were not
structured to encourage and reward superior performance, and were
often process-rather than results-oriented.

We recommended that the Deputy Assistant Secretary for
Procurement and Assistance Management and the Manager, Rocky
Flats Field Office take several corrective actions. Management
concurred with four recommendations and partially concurred with
the remaining two.

Attachment

cc:     Deputy Secretary
     Under Secretary

                        U.S. DEPARTMENT OF ENERGY
                       OFFICE OF INSPECTOR GENERAL




              AUDIT OF THE CONTRACTOR INCENTIVE PROGRAMS

           AT THE ROCKY FLATS ENVIRONMENTAL TECHNOLOGY SITE


The Office of Inspector General wants to make the distribution of
its reports as customer friendly and cost effective as possible.
 Therefore, this report will be available electronically through
      the Internet at the following alternative addresses:

               Department of Energy Headquarters Gopher
                           gopher.hr.doe.gov

            Department of Energy Headquarters Anonymous FTP
                          vm1.hqadmin.doe.gov

  Department of Energy Human Resources and Administration Home Page
                    http://www.hr.doe.gov/ig

  Your comments would be appreciated and can be provided on the
         Customer Response Form attached to the report.

                 This report can be obtained from the
                       U.S. Department of Energy
            Office of Scientific and Technical Information
                              P.O. Box 62
                      Oak Ridge, Tennessee 37831




Report Number:     DOE/IG-0411       Western Regional Audit Office
Date of Issue:     August 13, 1997   Albuquerque, New Mexico 87185


              AUDIT OF THE CONTRACTOR INCENTIVE PROGRAMS
           AT THE ROCKY FLATS ENVIRONMENTAL TECHNOLOGY SITE

                            TABLE OF CONTENTS

                                                                 Page

             SUMMARY   .......................................     1

PART I -     APPROACH AND OVERVIEW   .........................     3

             Introduction ...................................      3
           Scope and Methodology ..........................       3

           Background    ....................................     4

           Observations and Conclusions ...................       5

PART II    -    COST REDUCTION INCENTIVES   ..................    7

PART III   -    PERFORMANCE MEASURE INCENTIVES ..............    17

PART IV    -    MANAGEMENT AND AUDITOR COMMENTS   ............   25

PART V -   APPENDICES    ....................................    29

           A.    Summary of Related Office of Inspector General
                 Reports .................................... 29

           B.    Office of Procurement and Assistance Management
                 Comments ................................... 31

           C.    Rocky Flats Field Office Comments ..........    34
                    U.S. DEPARTMENT OF ENERGY
                   OFFICE OF INSPECTOR GENERAL
                    OFFICE OF AUDIT SERVICES

          AUDIT OF THE CONTRACTOR INCENTIVE PROGRAMS AT
          THE ROCKY FLATS ENVIRONMENTAL TECHNOLOGY SITE

Audit Report Number:   DOE/IG-0411

                              SUMMARY


     The Contract Reform Report entitled Making Contracting Work
Better and Cost Less made several recommendations to improve
contracting within the Department of Energy (Department). The
report recommended that the Department motivate contractors to
employ innovative business practices and techniques to reduce or
avoid costs associated with contract performance. It also
recommended that Department contracts contain performance
measures that are clearly stated, structured to encourage and
reward superior performance, and are results-oriented. The
objective of this audit was to determine whether cost savings
awards and performance fees paid by the Rocky Flats Field Office
(Rocky Flats) were appropriate and justified. As part of the
audit, we reviewed the cost reduction and performance measure
incentive programs at the Rocky Flats Environmental Technology
Site (Rocky Flats Site) to determine (1) whether Rocky Flats
rewarded Kaiser-Hill Company, LLC (Kaiser-Hill) for cost
reduction proposals that were innovative and resulted in savings
that were returned to the Department's control, and (2) if
performance measures rewarded performance expectations that were
properly defined, within the contract period, and produced
results.

     Contrary to the Department's guidance on cost reduction
incentives, Rocky Flats approved three Kaiser-Hill cost reduction
proposals that did not meet basic criteria. These proposals,
with approved savings of about $16 million, were not innovative
and generally did not return savings to the Department. The
proposals were approved because Rocky Flats did not use the
contract in conjunction with Departmental guidance as a basis for
accepting or rejecting the proposals. As a result, Rocky Flats
awarded almost $5.6 million to Kaiser-Hill. Because Kaiser-Hill
did not always return savings as stipulated in the Department's
guidance, Rocky Flats used nearly $4.4 million of program funding
to pay Kaiser-Hill.

     In addition, our review of the contract with Kaiser-Hill for
the operation of the Rocky Flats Site disclosed that it included
performance measures which did not meet the Contract Reform
Report's recommendation. Performance measures did not always
include clearly defined criteria, were not structured to
encourage and reward superior performance, and were often process-
rather than results-oriented. For meeting such performance
measures, Rocky Flats paid about $6.9 million in incentive fees.
     We recommended that the Deputy Assistant Secretary for
Procurement and Assistance Management ensure that all Department
of Energy contracts with cost reduction incentive programs
include provisions that require cost reduction proposals to be
innovative and result in the return of savings to the
Department's control and to use the data developed in this audit
as part of its Departmentwide review of the performance-based
contracting incentive programs. The Deputy Assistant Secretary
for Procurement and Assistance Management concurred with these
recommendations.

     We recommended that the Manager, Rocky Flats Field Office,
direct the Contracting Officer to: (1) utilize Departmental cost
reduction incentive program guidance; (2) establish performance
measures that are clearly defined using objective data,
structured to encourage and reward superior performance, and are
results- rather than process-oriented; (3) take action to recover
the amounts awarded for cost reduction proposals that were not
innovative or did not return savings to the Department's control;
and (4) review all incentive fees paid and seek recovery of fees
for performance that occurred before the effective date of the
contract or outside of the measurement period. The Manager,
Rocky Flats Field Office concurred with the first two
recommendations and partially concurred with the last two.




__________(Signed)___________
Office of Inspector General

                                  PART I

                        APPROACH AND OVERVIEW

INTRODUCTION

     The Department is using performance-based management
contracts to solve problems associated with its traditional
management and operating contracts. The performance-based
management contracts are to include cost reduction incentive
programs to motivate contractors to reduce costs by employing
innovative practices. Additionally, these contracts are to
encourage and reward superior, results-oriented performance
through a clearly defined performance measure incentive program.
The objective of this audit was to determine whether cost savings
awards and performance fees paid by Rocky Flats were appropriate
and justified. As part of the audit, we reviewed the cost
reduction and performance measure incentive programs at the Rocky
Flats Site to determine (1) whether Rocky Flats rewarded
Kaiser-Hill for cost reduction proposals that were innovative and
resulted in savings that were returned to the Department's
control, and (2) if performance measures rewarded performance
expectations that were properly defined, within the contract
period, and produced results.

SCOPE AND METHODOLOGY
     The audit was conducted at the Rocky Flats Site near Golden,
Colorado, from September 1996 through May 1997. To accomplish
the audit objective, we:

     o compared contractual provisions and Rocky Flats procedures
       to applicable Departmental guidance for cost reduction
       incentive programs and performance measures;

     o reviewed the six Fiscal Year 1995 and 1996 cost reduction
       proposals that Rocky Flats had reviewed and rendered a
       decision on as of November 6, 1996;

     o reviewed seven selected performance measures for
       Fiscal Year 1995 and eight performance measures for
       Fiscal Year 1996 that were among the measures with
       the highest fees; and,

     o interviewed Department and contractor officials.

     The audit was conducted according to generally accepted
Government auditing standards for performance audits, which
included tests of internal controls and compliance with laws and
regulations to the extent necessary to satisfy the audit
objective. We limited our review of internal controls to those
controls associated with reviewing cost reduction proposals and
implementing performance measures. Because our review was
limited, it would not necessarily have disclosed all internal
control deficiencies that may have existed at the time of our
audit. The audit did not rely extensively on computer processed
data. Therefore, we did not fully examine the reliability of the
computerized data used.

     We discussed the results of our review with officials in the
Office of Procurement and Assistance Management and officials at
Rocky Flats during the course of the audit and at an exit
briefing with Rocky Flats on June 20, 1997.

BACKGROUND

     For several decades the Rocky Flats Site operated as part of
the nation's nuclear weapons production complex. In 1989,
however, the Department shut down production at the Rocky Flats
Site in order to improve the conduct of operations, the standards
of performance, and the management structure. The Cold War ended
while the plant was shut down and, in 1992, the process of
transitioning from the production mission began. By the end of
1994, all production activities had ceased and the new mission
was to clean up the Site, including preparing for decontamination
and disposition of its facilities.

     Concurrent with these changes, Contract Reform was moving
through the Department. Historically, many of the Department's
facilities, including the Rocky Flats Site, had been managed and
operated for the Department under management and operating (M&O)
contracts. The Department reimbursed the M&O contractors' costs
and paid them a fee. In a February 1994 report, Making
Contracting Work Better and Cost Less, the Department's Contract
Reform Team advocated the use of performance-based contracts to
solve problems inherent in the M&O process. One of the report's
many recommendations was that the Department motivate its
contractors to employ innovative business practices and
techniques to reduce or avoid costs associated with contract
performance. Another recommendation was for the Department to
utilize performance-based contracts. The contracts were to have
performance measures that were clearly stated and results-
oriented so that contractors would know what was expected.
Through an incentive fee process, the performance measures and an
evaluation of contractor performance in relation to the measures
were to be used to reward superior performance and discourage
substandard performance.

     On July 1, 1995, the M&O contract with EG&G Rocky Flats,
Inc. (EG&G), ended and the Department's contract with Kaiser-Hill
became effective. The Rocky Flats mission was to clean up,
deactivate, and prepare for decontamination and disposition of
the facilities that were once part of the Department's Nuclear
Weapons Complex. Kaiser-Hill, as the integrating contractor at
the Rocky Flats Site, was supposed to support the Site's federal
staff in its contract management activities, including finding
the appropriate mix of contractors to accomplish this mission.
Kaiser-Hill assembled a team of primary companies to serve as
subcontractors to tackle specific areas of operations. There
were also a number of sub-tier contractors to the primary team
members.

Cost Reduction Incentives

     As recommended by the Contract Reform Team, the contract
with Kaiser-Hill included an incentive program to reduce costs.
Contract Clause H.6., Cost Reduction Proposals, encouraged
Kaiser-Hill to develop and submit proposals to the Contracting
Officer for review. If the Contracting Officer approved the
proposal, Kaiser-Hill could receive 35 percent of the estimated
savings, with half of the "award," or 17.5 percent, going to the
Kaiser-Hill employees who were eligible to participate in the
Employee Incentive Compensation Plan.

     As of November 6, 1996, Kaiser-Hill submitted 20 cost
reduction proposals with claimed savings of nearly $33.3 million.
As of January 27, 1997, indications were that Kaiser-Hill planned
to submit an additional 51 proposals with an estimated claimed
savings of as much as $77 million.

Performance Measures

     The contract also established performance measures to give
the contractor the opportunity to earn incentive fees
commensurate with the achievement of measurable optimum contract
performance. Performance measures were written on a fiscal year
basis. Because Kaiser-Hill's contract was effective
July 1, 1995, performance measures were written for the fourth
quarter of Fiscal Year 1995. Another set of performance measures
was written for Fiscal Year 1996. A minor amount of
Kaiser-Hill's potential fee was tied to acceptable performance,
while the majority of available fee was tied to superior
performance. Kaiser-Hill and its primary subcontractors earned
about $6.5 million of $8.8 million in available incentive fees
for the fourth quarter of Fiscal Year 1995. For
Fiscal Year 1996, Kaiser-Hill and its primary subcontractors
earned $29.2 million of $39.1 million in available fees. Kaiser-
Hill employees were to receive 20 percent of the performance fees
earned by Kaiser-Hill.

OBSERVATIONS AND CONCLUSIONS

     On March 19, 1997, the Secretary of Energy announced an
initiative to review the use of performance-based incentives in
contracts for the management of Department of Energy sites and
facilities. The purpose of the review, the results of which are
to be available by mid-August 1997, is "to ensure that
incentives identified in the Department's contracts are rational,
appropriately constructed, tied to reasonable fee incentives, and
properly administered." Pending completion of the review and in
response to this report, the Deputy Assistant Secretary for
Procurement and Assistance Management directed the following
actions:

        o Operations Offices shall establish a senior management team
          to perform an integrated review of all performance incentives
          prior to their being finalized.

        o Cost Reduction/Cost Savings incentives, in order to be
          considered for review, must meet the minimum conditions and
          principles set forth in guidance to be published by my
          office and as contained in the "Cost Reduction" clause of
          the draft fee policy.

    o     Performance incentives, including Cost Reduction/Cost
          Savings incentives shall be subject to Headquarters' review
          and approval until lessons learned and remedial guidelines
          have been implemented.

        o As necessary, negotiations will be undertaken with the
          site contractors to either modify Cost Reduction/Cost
          Savings incentive provisions consistent with Departmental
          guidance or discontinue their application.

     This audit report raises a number of concerns regarding the
implementation and administration of both the contractor
performance and cost savings incentive programs at the Rocky
Flats Site. However, it was the view of Rocky Flats' management
that contractor performance had improved as a result of
instituting performance-based contracting. We support the use of
performance-based contracting, where appropriate, and believe
that implementation of the recommendations in this report will
further improve contractor performance.


                              PART II
                      COST REDUCTION INCENTIVES


     According to Departmental guidance, cost reduction incentive
programs should reward contractors for innovative cost reduction
proposals that reference appropriate baselines and return savings
to the Department's control. However, Rocky Flats approved three
of Kaiser-Hill's proposals, valued at $16 million in estimated
savings, that were not innovative and generally did not return
hard dollar savings. For example, Rocky Flats approved a
Kaiser-Hill work force reduction proposal that was mission and
budget driven and planned by Rocky Flats and EG&G, the
predecessor contractor. In addition, Kaiser-Hill did not return
any of the estimated savings to the Department. Rocky Flats
approved the proposals because it did not rely upon the terms of
the contract with Kaiser Hill and available Departmental guidance
as a basis for accepting or rejecting cost reduction proposals.
As a result, Rocky Flats awarded almost $5.6 million to
Kaiser-Hill for cost reduction incentives which we found to be
questionable. To make these awards, Rocky Flats used nearly
$4.4 million of program funding because Kaiser-Hill had not
always returned hard dollar savings to the Department.

RECOMMENDATIONS

     We recommend that the Deputy Assistant Secretary for
Procurement and Assistance Management ensure that Departmental
contracts with cost reduction incentive programs include
provisions that require the cost reduction proposals to be
innovative and result in the return of hard dollar savings to the
Department's control.

     We recommend that the Manager, Rocky Flats Field Office,
direct the Contracting Officer to:

          Utilize the contract in conjunction with Departmental
       guidance as a basis for accepting or rejecting cost reduction
       proposals. Specifically, reject proposals that are not
       innovative or do not result in hard dollar savings that are
       returned to the Department's control.

          Take action to recover the amounts paid to Kaiser-Hill for
       cost reduction proposals that were not innovative or did not
       return savings to the Department's control.

MANAGEMENT REACTION

     The Deputy Assistant Secretary for Procurement and
Assistance Management concurred with the recommendation. The
Manager, Rocky Flats Field Office, concurred with the first
recommendation and partially concurred with the second. Part IV
of this report includes detailed management and auditor comments.

COST REDUCTION INCENTIVE PROGRAMS

     As recommended in the Department's report on Contract
Reform, the Department's contract with Kaiser-Hill includes an
incentive to encourage Kaiser-Hill to reduce operating costs.
Kaiser-Hill can benefit from this incentive by developing cost
reduction proposals and submitting them to Rocky Flats for
review. According to the Rocky Flats draft procedure for
implementing the cost reduction proposal program, the review
includes a technical and financial review. If the proposal is
subsequently approved by the Contracting Officer, the contract
allows Kaiser-Hill to receive a 35 percent share of the savings
realized by the Department. If the proposal is rejected, the
contract requires that the Department set forth the reasons in
writing.

     Although it allows the Department to accept or reject each
cost reduction proposal, the contract does not contain specific
guidance about how this is to be accomplished. Consequently, we
looked at the Department's April 1995 guidance, Report on
Contract Reform Action Item No. 11, Cost Reduction/Cost Avoidance
Incentives, which was issued just months before the Kaiser-Hill
contract became effective. The guidance considered the "lessons
learned" from earlier cost reduction incentive programs. It also
considered prior Office of Inspector General report findings (See
Appendix A) that cost savings claimed by contractors were "soft"
savings; that is, the savings were not tangible and could not be
deobligated from the contracts or reallocated. In our earlier
reports, we also expressed concerns about the Department's
validation of claimed savings, the baselines used to support
savings, and the lack of program guidance.

     According to the April 1995 guidance, cost reduction
programs should reward contractors for innovative practices that
result in hard dollar savings being returned to the Department.
The guidance defines innovative practices as new processes or
methods that strive for cost effectiveness above and beyond
routine business practices. Accordingly, proposals should not be
considered innovative if they are based on changes in mission,
forced budget reductions, or Department direction. The guidance
defines hard dollar savings as "measurable, near term savings"
that result from adopting new or modified work methods or
techniques. To provide measurable savings, therefore, proposals
should provide verifiable baselines and describe how new
procedures will produce savings that can be returned to the
Department. In order to qualify for sharing, savings must result
in funding being returned to the direct control of the
Department. Savings should be available for deobligation in the
immediate fiscal year or become available for deobligation in the
following fiscal year. Rocky Flats' draft procedure for
implementing its cost reduction proposal program also referenced
innovation and hard dollar savings as being components of
successful cost reduction proposals.

COST REDUCTION PROPOSALS

     At the time of our audit, Rocky Flats had reviewed and
reached a decision on six cost reduction proposals submitted by
Kaiser-Hill and valued, as revised, at $20.2 million. In three
instances, Rocky Flats rejected proposals valued at $830,000
because they lacked innovation or did not demonstrate verifiable
savings. In the other instances, Rocky Flats approved
Kaiser-Hill's cost reduction proposals but at a reduced value of
about $16 million. We concluded that Rocky Flats should have
rejected all six proposals because they did not meet the criteria
established in the Department's guidance.

Work Force Reductions

     On September 29, 1995, Kaiser-Hill submitted a cost
reduction proposal claiming estimated savings of about $20.7
million for advancing to July 1, 1995, a reduction in work force
planned for November 1, 1995. The Contracting Officer initially
rejected the proposal on the grounds that an existing performance
measure already rewarded Kaiser-Hill for work force reductions.
Kaiser-Hill submitted a revised proposal and asked that Rocky
Flats reconsider its decision because the benefits were separate
and distinct from the benefits of the performance measure.
Specifically, Kaiser-Hill noted that the work force was being
reduced prior to the September 30, 1995, date shown for meeting
the performance measure. The revised proposal claimed savings of
over $14.9 million for the period July 1 through
September 30, 1995. Kaiser-Hill claimed that, through its
efforts, the work force went from 5,832 employees to 4,617
employees, a reduction of 1,215 employees.

     The Contracting Officer accepted the proposal based on a
Rocky Flats technical review that recommended approval because
Kaiser-Hill accelerated a Department-directed work force
reduction. Because of a parallel financial review, however, the
estimated savings were reduced from $14.9 million to about
$12.3 million. The financial review also noted that the proposal
could be rejected in its entirety because (1) Rocky Flats
directed the reductions in anticipation of reduced budgets, (2)
the reductions were accomplished by EG&G before the effective
date of the contract with Kaiser-Hill, and (3) a transition
contract, which covered the period May 1 through June 30, 1995,
compensated Kaiser-Hill for participating in the work force
reduction. Despite the findings expressed in the financial
review, the Contracting Officer approved the proposal and awarded
Kaiser-Hill a $4.3 million incentive bonus.

     This audit disclosed that the substantive concerns raised
during the financial review were supported by the April 1995
Departmental guidance. We concluded, as well, that Rocky Flats
should have rejected Kaiser-Hill's proposal for lack of
innovation and other reasons, based on the following:

     o Rocky Flats anticipated that work force reductions would
       be part of the transition from a defense mission to an
       environmental cleanup mission. A July 1992, Rocky Flats
       Transition Plan provided to Congress showed that stopping
       weapon component production would reduce the work force to
       4,500 in Fiscal Year 1995 from the 8,000 employees in
       Fiscal Year 1992.

     o The reduction-in-force was driven by a declining budget.
       The Rocky Flats Site's total budget (new budget authority
       and carryover) dropped $121 million, from $912 million for
       Fiscal Year 1995 to $791 million for Fiscal Year 1996.
       According to the Rocky Flats Budget Officer, reductions of
       this magnitude inevitably result in staff reductions.

     o Rocky Flats had planned the work force reductions several
       months before Kaiser-Hill was selected as the new,
       integrating contractor. In December 1994, Rocky Flats
       informed Headquarters that it intended to reduce the work
       force in Fiscal Year 1995 to better posture the new inte-
       grating contractor for the reduced Fiscal Year 1996 budget.
       Rocky Flats directed EG&G, the then current management and
       operating contractor for the Rocky Flats Site, to assess
       the impact of a reduced work force resulting from the
       decreased budget. This assessment was to assume that
       work force reductions would occur by July 1, 1995, at which
       time the employment level would be as low as 4,500 employees.
       In February 1995, Rocky Flats announced its intention to
       reduce the work force by as many as 1,700 employees by
       November 1995.

     o EG&G, the predecessor contractor, actually separated the
       employees before the effective date of the contract with
       Kaiser-Hill and before Kaiser-Hill became responsible for the
       Rocky Flats Site. On June 28, 1995, about 934 employees were
       voluntarily separated from EG&G. That was also the last day
       at the Rocky Flats Site for about 281 employees involuntarily
       separated, even though those employees were paid through
       August 28, 1995.

     o Kaiser-Hill did not return hard dollar savings to the
       Department. To have such savings, an established baseline
       of cost, schedule, and work scope would have to be compared
       with a new baseline. Since Kaiser-Hill did not establish a
       new baseline in the proposal, a comparison could not be made;
       consequently, savings could not be returned to the Department's
       control.

     Furthermore, a transition contract provided for compensation
to Kaiser-Hill for work force restructuring activities. Rocky
Flats paid Kaiser-Hill a fixed price of about $9.9 million for
transition activities specified in the statement of work. These
activities included developing a work force restructuring plan,
preparing for the transfer and hire of employees, conducting
employee orientations, interviewing incumbent management and
staff, and initiating procedures required by the reduction
process, including the identification of the number of employees
in affected classifications. For these reasons, Kaiser-Hill
should not have been awarded nearly $4.3 million for the
accelerated work force cost reduction proposal.

     Rocky Flats agreed that the work force reductions were a
Department initiative. Rocky Flats, however, stated that none of
these Department plans or initiatives targeted significant work
force reductions on July 1, 1995, and without Kaiser-Hill's
initiative, the reductions would not have occurred until
November 1, 1995. According to Rocky Flats, EG&G never planned
to reduce the work force by July 1, 1995, and the effectiveness
and timeliness of the reductions were due to Kaiser-Hill. The
savings rewarded for this cost reduction proposal were due to the
acceleration of the reductions from the previously planned date
of November 1 to July 1, 1995. Only those savings for
accelerated work force reductions were recognized and rewarded.

     During our audit, we requested documentation to support
Rocky Flats' assertion that Kaiser-Hill accelerated the planned
reductions in the work force. Rocky Flats produced documentation
that stated reductions would occur "by" November 1, 1995. From
this, we concluded that the reductions could have occurred any
time before that date. In fact, Rocky Flats had directed EG&G to
prepare assessments on the basis of work force reductions
occurring by July 1, 1995.

     Rocky Flats also commented that the report implies that EG&G
was responsible for the savings rather than Kaiser-Hill because
EG&G had separated the employees and provided them with work
force restructuring benefits. According to Rocky Flats, this
line of reasoning ignores the fact that it was strictly because
of Kaiser-Hill's decision to hire fewer workers that they were
separated by EG&G. If not for Kaiser-Hill's decision to hire
fewer workers than EG&G had on staff, there would have been no
such separations and no savings for the period from July 1 to
November 1, 1995.

     We did not intend to imply that EG&G was responsible for the
savings. Rather, it was a declining budget that drove the work
force reductions. As previously stated, we did not find support
to show that the separations would occur on November 1, 1995, or
that Kaiser-Hill accelerated the reductions in work force.
Further, the transition contract compensated Kaiser-Hill for its
participation in the work force reductions.

Fringe Benefit Changes

     On September 29, 1995, Kaiser-Hill submitted a cost
reduction proposal that estimated savings of about $3.3 million
for changes it made to EG&G's fringe benefit package.
Specifically, Kaiser-Hill claimed savings of $1.6 million for
shifting medical costs to employees, $1.2 million for reducing
savings plan contributions, and $640,000 for consolidating paid
leave provisions. The $3.6 million total savings was offset by
about $290,000 of implementation costs for net savings of about
$3.3 million. This proposal used the savings period of
August 1, 1995 through July 31, 1997.1

     The technical review recommended that the proposal be
approved because the changes being made by Kaiser-Hill
represented a major step in bringing benefits in line with
private industry. The financial review recommended approval of
the proposal, but recommended that the award be reduced because
Kaiser-Hill did not return the portion of the $3.3 million
savings related to Fiscal Year 1995. The Contracting Officer
approved the proposal and Kaiser-Hill's $1.1 million share2 of
the full $3.3 million savings contained in the proposal because
it was determined that the contract did not require Kaiser-Hill
to return savings. The preliminary results of a later financial
review, made to validate the savings, noted that estimated
savings were overstated by over $1 million. Rocky Flats is still
in the process of validating the estimated savings claimed.

     Applying the Departmental guidance, we found that Rocky
Flats should have rejected the proposal because it was not
innovative. According to a 1995 U.S. Chamber of Commerce study
of benefit practices, Kaiser-Hill's proposed actions -- shifting
of medical benefit costs to employees, reducing employer savings
plan contributions, and consolidating paid leave by doing away
with specific leave categories -- were all trends in private
industry. Also, it was known that EG&G's medical benefits were
greater than the benefits paid by private industry. This had
been documented in a June 1994 Office of Inspector General report
(See Appendix A). Finally, in Kaiser-Hill's best and final
offer, before being awarded the integrating contract, it said
that it would bring fringe benefits in line with private
industry. Therefore, by taking the actions contained in its cost
savings proposal, Kaiser-Hill was not going above and beyond
routine business practice.

     Also, the proposal did not result in Kaiser-Hill's returning
hard dollar savings to the Department's control. That is,
Kaiser-Hill did not make funding available for immediate
deobligation or, alternatively, show how proposed savings would
be reallocated to other work.

     Rocky Flats disagreed with the audit conclusion that it
should have rejected the cost reduction proposal for lack of
innovation. Rocky Flats asserted that although reductions in
employee benefits had been a noticeable trend in industry, the
work force at the Rocky Flats Site and many other Department
sites had been insulated from such trends. Thus, the reduction
in employee benefits was a very significant departure from
"business as usual."

     Narrowly viewed, it might appear that Kaiser-Hill was being
innovative in reducing fringe benefits. We noted, however, that
the report on Contract Reform stated that cost reduction
incentives should motivate contractors to employ innovative
business practices and techniques to reduce or avoid costs
associated with contract performance. From a broader view, one
which factors in the June 1994 Office of Inspector General report
that disclosed that contractor employee health benefit costs at
Rocky Flats were unreasonable, Kaiser-Hill's actions were not
innovative. Based on the position it has taken in this matter,
it would appear that Rocky Flats would reward virtually any cost
reduction claim, even though its contract with Kaiser-Hill
requires that the contractor operate economically as a normal
course of business. In order to operate economically,
Kaiser-Hill should routinely examine its operations to identify
ways to reduce the cost of doing business.

Elimination of a Support Services Contract
     On December 22, 1995, Kaiser-Hill submitted a proposal that
claimed savings of $1.2 million over two years for eliminating a
computer support services contract. According to the proposal,
Kaiser-Hill personnel became sufficiently skilled at database
administration and technical support by September 30, 1995, and
no longer needed the contract support. Accordingly, Kaiser-Hill
chose not to renew the contract on October 1, 1995, and returned
$612,000 through a baseline change proposal that was budgeted in
Fiscal Year 1996.

     The technical review recommended approval, in part, because
the proposal was not considered to be a standard Rocky Flats Site
practice. A preliminary financial review recommended disapproval
of the proposal because of inaccuracies in the estimated savings
claimed and because the claimed action was a Department
requirement. The follow-up financial review reduced the
estimated savings base, increased implementation costs, and
reduced the term of shared savings. The Contracting Officer
ultimately approved $448,840 of the $1.2 million savings claimed
by Kaiser-Hill.

     We found that the proposal should have been rejected because
it was not innovative. Kaiser-Hill stated in its proposal that
the need for the contract was based on higher than necessary
system requirements and duplicated another contractor's work
scope. By opting not to renew the contract, Kaiser-Hill was
merely carrying out DOE Order 1360.1B, Acquisition and Management
of Computing Resources, which required Department contractors to
annually evaluate computer resource needs.

     Rocky Flats stated that the cost reduction proposal was not
merely the result of a standard Site practice. Kaiser-Hill had
identified, developed and put in place the necessary skills to
replace the subcontract. However, as stated previously, the
contract requires that Kaiser-Hill operate economically as a
normal course of business. Performing routine business
practices, such as make or buy, lease versus purchase, or
staffing analyses should not be rewarded even when they result in
lower costs.

REASONS FOR APPROVAL

     Rocky Flats approved the three proposals because it did not
rely on the contract terms and Departmental guidance as a basis
for accepting or rejecting the proposals. Contract Clause H.6.,
Cost Reduction Proposals, allowed the rejection of any proposal
as long as Rocky Flats provided reasons for the rejection. In
addition, the clause stated that such rejections could not be
disputed. The clause also stipulated that if Rocky Flats could
not negotiate acceptable terms, the proposal would be considered
rejected. Despite having the contractual right to reject
proposals, Rocky Flats did not apply the clause to the three
proposals.

     Although the contract clause did not include specific
criteria for accepting or rejecting proposals, such criteria was
contained in the Department's guidance on cost reduction
incentives, as well as in Rocky Flats' own draft procedures for
reviewing and approving cost reduction proposals. Both documents
required proposals to be innovative and to result in the return
of hard dollar savings to the Department. The guidance pointed
out, for instance, that an innovative proposal was not one that
resulted from a change in mission, a forced budget reduction,
Department direction, or was a standard business practice. If
Rocky Flats had applied the Department's guidance or its own
draft procedures, we believe it would have rejected all of the
proposals.

     Rocky Flats defended its decisions to accept the three
proposals by stating that the contract neither required that
proposals be innovative or return dollars to the Department nor
did it require Kaiser-Hill to submit proposals that followed
Departmental or Rocky Flats guidance. According to Rocky Flats
officials, therefore, there was no established basis for
rejecting the proposals. We concluded, however, that the
contract provided Rocky Flats appropriate latitude to reject cost
reduction proposals that did not meet basic criteria. The Deputy
Assistant Secretary, in responding to this report, agreed that
the Contracting Officer has broad latitude to reject cost
reduction proposals unless specific language to the contrary is
in the contract. The Deputy Assistant Secretary further stated
that he believed that the existing clause did not preclude Rocky
Flats from applying the criteria contained in the 1995 guidance.
Thus, the position taken by the Rocky Flats officials was, in our
judgment, contrary to the concepts advocated in the Department's
guidance on cost reduction incentives and was inconsistent with
its own actions in those cases where cost reduction proposals had
been rejected.

     According to Rocky Flats, it would be inappropriate to apply
the Departmental guidance because it was nonmandatory and it was
issued after the contract with Kaiser-Hill was signed. In
addition, Rocky Flats noted that, during contract negotiations,
Kaiser-Hill reduced its proposed total incentive fees, while
increasing its estimated cost savings under the cost reduction
proposal program. However, it does not seem reasonable to
disqualify the guidance because it was nonmandatory. The
guidance was the best available at the time, and it embodied
concepts contained in the Contract Reform Team Report. In fact,
a Rocky Flats official was part of the team that produced the
guidance. Further, there does not appear to be a logical
relationship between its decision as to application of the
guidance and any trade-off between total proposed incentive fees
and cost reduction proposals.

     Rocky Flats disagreed that its acceptance of cost reduction
proposals was in any way "...contrary to its own actions in those
instances where proposals were rejected." It contended that: (i)
each of the reasons for rejecting the cost reduction proposals
was supported by contract language and (ii) the Contract Reform
guidance support for these decisions was inconsequential to the
Contracting Officer's mandates under the contract.3

AWARDS PAID TO KAISER-HILL
     By not relying on existing contract terms and available
guidance, Rocky Flats awarded Kaiser-Hill almost $5.6 million for
cost reduction proposals that should have been rejected. Rocky
Flats paid only $5 million of Kaiser-Hill's share in
Fiscal Year 1996 because half of the fringe benefit proposal's
estimated savings were attributable to future periods. The
following table shows that Kaiser-Hill received nearly
$4.4 million more than it returned to the Department as hard
dollar savings.

                              TABLE 1
                  Awards Paid in Fiscal Year 1996
                       Approved Returned Kaiser-      Share
     Description of    Savings Savings    Hill's    Paid in
        Proposal                Savings   Share     FY 1996
                                            (35%)
     Work Force     $12,255,031   0      $4,289,261 $4,289,261
       Reductions
     Fringe Benefit 3,264,412     0       1,142,544     541,873
       Changes
     Elim. Support      448,840 $612,000    157,095     157,095
       Services4

           Totals   $15,968,283 $612,000 $5,588,900   $4,988,229

        Returned Savings                                 612,000
     Award Paid w/Program Funds                       $4,376,229

     Because Kaiser-Hill did not always return hard dollar
savings to the Department, Rocky Flats had to reduce program
funding by nearly $4.4 million in order to pay Kaiser-Hill for
its share of the cost savings awards in Fiscal Year 1996. For
example, Rocky Flats reduced site landlord and field office
funding for infrastructure costs associated with environmental
management programs.

     Rocky Flats was especially concerned about the audit
conclusion that hard dollar savings were not returned to the
Department. Rocky Flats stated that the report suggested that
the Government did not receive any benefit as a result of the
accelerated work force reduction and fringe benefit cost
reductions. Rocky Flats said that the total savings for these
two reductions -- approximately $15.5 million, based on
preliminary estimates -- was a real savings, of which
$4.8 million was paid to Kaiser-Hill in Fiscal Year 1996. The
$10.7 million remainder was stated to have been reallocated to
other work during the fourth quarter of Fiscal Year 1995, when
Kaiser-Hill operated under the previous contractor's baseline,
and in Fiscal Year 1996 when Kaiser-Hill reflected the savings in
the new baseline it submitted. Rocky Flats stated that its
review and acceptance of the new baseline for Fiscal Year 1996
indicated an acceptance of the proposed reallocation, which
complied with the intent of the Departmental guidance to return
savings to the Department's control. Rocky Flats further
asserted that the April 1995 Departmental guidance did not
address the actions to be taken when the entire baseline is in a
period of transition. While it could have exercised more control
over the disposition of the savings, Rocky Flats believed it
would not have been cost effective for Kaiser-Hill to generate a
new baseline incorporating out-of-date data (work force levels
and labor costs prior to the work force reduction) into a
baseline just so Rocky Flats could subsequently modify the work
scope and revise the baseline. Rocky Flats also stated that the
work force reduction savings could be readily calculated because
the salaries and benefits of the individuals whose jobs were
terminated were known and, therefore, there was a clear baseline
for the personnel costs of each individual.

     We agree that the amount of savings that should have
occurred as a result of reducing the work force and changing
fringe benefits could be readily calculated. However, without a
paper trail, no one knows what additional work, if any, the
Department received for the $10.7 million. The $10.7 million
could have been spent without the Department getting any
additional work performed.

     The return of hard dollar savings allows the Department to
maintain control over the integrity of the cost baseline.
Without the return of savings from the cost reductions to the
Department's control, there is no reduced overall cost and
Kaiser-Hill is no longer accountable for performing other work
within previously agreed upon budgets. Past Office of Inspector
General reports (See Appendix A) have been critical of "soft
dollar" savings and, accordingly, the Departmental guidance uses
"hard dollar" savings.

     We are concerned that other mission-related activities could
suffer unless Rocky Flats requires Kaiser-Hill to return hard
dollar savings. Kaiser-Hill, for example, had already submitted
about $13 million of cost reduction proposals without indicating
that it would return hard dollar savings to the Department. In
addition, indications were that Kaiser-Hill planned to submit an
additional 51 proposals with as much as $77 million in estimated
savings. According to Kaiser-Hill's Cost Reduction Program
Manager, only about $18 million of this amount may be returned to
the Department. If these figures prove reasonably accurate,
Rocky Flats could end up paying $31.5 million (35 percent of
$90 million) but only receive savings of $18 million; thus, Rocky
Flats may need to reduce program funding by $13.5 million to pay
Kaiser-Hill its award.

EFFECT ON CONTRACT REFORM INITIATIVES

     The Contract Reform Team effort provided the conceptual
basis for the Department of Energy's transition toward
performance-based contracts and programs to incentivize
contractor efforts to reduce operating costs, such as the
contract at the Rocky Flats Site. We are concerned that as new
contracting methodologies are adopted throughout the Department,
the issues discussed in this report could occur at other
locations. Additional problems regarding contractor cost
reduction proposals could undermine the Department's Contract
Reform effort.
                             PART III

                  PERFORMANCE MEASURE INCENTIVES


     The Contract Reform effort concluded that performance-based
contracting should be the method of choice for obtaining
contractual assistance in managing major Departmental facilities
and operations. The Contract Reform Team recommended that such
contracts contain performance measures that are clearly stated,
structured to encourage and reward superior performance, and
results-oriented. Our review of the contract with Kaiser-Hill
for the operation of the Rocky Flats Site disclosed that it
included performance measures which did not meet the Contract
Reform Team's recommendation. The performance measures did not
always include clearly defined criteria, were not structured to
encourage and reward superior performance, and were often process-
rather than results-oriented. For meeting such performance
measures, Rocky Flats awarded about $6.9 million to Kaiser-Hill.5
Based on a "lessons learned" exercise, Rocky Flats indicated it
was in the process of identifying and implementing improvements
to its performance-based contracting practices.

RECOMMENDATIONS

     We recommend that the Deputy Assistant Secretary for
Procurement and Assistance Management use the data developed
during this audit at the Rocky Flats Site as part of its
Departmentwide review of the performance-based contracting
incentives program to clarify Departmental guidance on developing
and executing performance measures.

     We recommend that the Manager, Rocky Flats Field Office,
direct the Contracting Officer to:

        Establish performance measures that are clearly defined
        using objective data, structured to encourage and reward
        superior performance, and are results- rather than process-
        oriented.

        Review all incentive fees paid and seek recovery of fees
        for performance that occurred before the effective date of
        the contract or outside of the measurement period.

MANAGEMENT REACTION

     The Deputy Assistant Secretary for Procurement and
Assistance Management concurred with the recommendation. The
Manager, Rocky Flats Field Office, concurred with the first
recommendation and partially concurred with the second. Part IV
of this report includes detailed management and auditor comments.

DEFINING PERFORMANCE MEASURES

     One of the underlying principles of Contract Reform is to
reward and, thereby, encourage superior performance. To do this,
performance measure expectations should be defined through the
use of objective data. However, several Kaiser-Hill performance
measures defined expectations without objective data to support
the definition. This resulted in payment of incentive fees to
the contractor that were questionable in relation to the level of
work performed.

     Kaiser-Hill was rewarded for performance which could not be
adequately characterized. For example, the Kaiser-Hill contract
included two performance measures for venting storage drums.
These drums contained potentially explosive gases. The first
measure defined superior performance as venting 1,182 drums
during the three-month period ended September 1995. The second
measure defined acceptable performance as venting 600 drums over
the subsequent three-month period, which ended December 1995. By
the end of the first three-month period, Kaiser-Hill had vented
1,204 drums and was awarded a superior performance fee of
$339,774. By the end of the second three-month period,
Kaiser-Hill had vented approximately 600 drums and was awarded an
acceptable performance fee of $666,3536.

     The audit disclosed that Rocky Flats did not have the
objective data needed to support the definitions of superior or
acceptable expectations for these performance measures. Although
Rocky Flats officials indicated that the expectations were
subjectively determined using factors such as funding, building
availability, and drum movements, they could not provide formal
analytical data to support the determination. Moreover, a Rocky
Flats manager involved in monitoring the drum venting activity
provided us with baseline data that showed that at least 20 drums
could be vented per day, or approximately 1,200 drums in a
three-month period. If correct, this information supported a
definition of acceptable performance as venting approximately
1,200 drums in a three-month period. Using this standard,
Kaiser-Hill's performance for the period ending September 1995
was no more than acceptable, while its performance for the period
ending December 1995, in which only 600 drums were vented, was
less than acceptable. Although the fees paid for the drum
venting operations appeared to be in accordance with the terms of
the contract, we concluded that the measures did not define
performance levels in a way which supported the payment of
incentive fees totaling about $1 million to Kaiser-Hill for
venting drums.

     Two performance measures for excessing property also lacked
the objective data needed to define acceptable or superior levels
of performance. The measures defined an acceptable level of
performance as entering 4,790 line items of controlled and 2,080
line items of noncontrolled property into the Government's
property system. The superior level was defined as 7,185 items
of controlled property and 2,400 items of noncontrolled property.
Rocky Flats had not developed the objective data needed to
support these definitions. Officials stated that the levels were
based on past performance and management judgment. However,
various Rocky Flats managers acknowledged that the historical
information was not all that good and that no specific numerical
analysis supported performance level determinations for either
controlled or noncontrolled property. Without such data, we
questioned whether the performance measures could be relied upon.
In fact, as the audit disclosed, Kaiser-Hill processed more than
twice the number of data entries of controlled property and
nearly four times the amount of noncontrolled property required
by the measures. We concluded that the contractor's actual
performance confirmed that the original performance levels, which
were not supported by objective data, were not realistic. For
this effort, Kaiser-Hill received a performance fee of
$2.3 million.

     Rocky Flats stated that the performance measures related to
excess property recognized that the property system Kaiser-Hill
inherited had long been identified as ineffective by the Office
of Inspector General and the General Accounting Office. The
measures also recognized that Kaiser-Hill's property management
and disposal system was not fully approved and that the system
required remedial action to bring it to the level where the
Department could accept it. Rocky Flats stated that it
recognized the difficulty of establishing appropriate interim
milestones as incentives toward a successful system. Because the
previous contractor's performance had been so lacking, Rocky
Flats found it difficult to predict how quickly improvements
could be made and difficult to establish appropriate performance
measures. Rocky Flats agreed that, in retrospect, the
performance measures used in Fiscal Year 1996 in this area could
have been more challenging but that the performance measures had
focused Kaiser-Hill's attention on correcting the problems in a
seriously flawed property system.

     The Kaiser-Hill contract contained a performance measure
that addressed operational safety requirements. One expectation
of this measure was to reduce safety violations by 10 percent
from the prior quarter in each of six specified buildings.
However, Rocky Flats did not obtain the baseline data needed to
define this expectation. In one illustration of the need for
quality baseline data, the audit disclosed that one of the six
buildings had not had any safety violations in the prior quarter.
Rocky Flats officials stated that they were unaware that the
building had had no safety violations. Nonetheless, Kaiser-Hill
received a performance fee of $60,920 for conformance with the
safety expectation for this building.

     Another expectation associated with the operational safety
measure was designed to encourage Kaiser-Hill to self-identify
safety violations. Under this performance measure, the
contractor was not to receive a fee if Rocky Flats brought more
than two safety violations to Kaiser-Hill's attention. The
rationale for the measure was that Kaiser-Hill would not be
demonstrating it was doing an effective job of identifying safety
violations if the Department found more than two violations
during the performance period. In fact, Rocky Flats management
identified three safety violations which, according to the
contract, should have nullified any associated incentive fee.
Nonetheless, Rocky Flats paid Kaiser-Hill $584,240 for this
measure. Rocky Flats admitted that the definition of "self-
identification" may not have been as good as it could have been
and that the documentation supporting the payment of the
incentive fee was incomplete.

PERFORMANCE BEFORE THE EFFECTIVE DATE OF THE CONTRACT

     Rocky Flats paid Kaiser-Hill for performance that occurred
before the July 1, 1995, effective date of the contract. Kaiser-
Hill was awarded $558,021 for a measure that required a
significant reduction in the contractor work force at the Rocky
Flats Site. For the most part, the reduction-in-force occurred
on June 28, 1995, shortly before Kaiser-Hill became the
integrating contractor at the Site. Similarly, Kaiser-Hill
received an award of $317,098 for a measure which required a
regulatory summit before the effective date of its operating
contract with the Department. Kaiser-Hill, in documenting its
incentive fee request, referenced a series of meetings that began
in April 1995. This was nearly two months prior to the
initiation of its prime contract.7

PERFORMANCE OUTSIDE THE MEASUREMENT PERIOD

     Kaiser-Hill received performance incentive awards for
activities that fell outside the measurement period. For
example, the Kaiser-Hill contract included an environment-related
performance measure for removing ground contaminants. One of the
requirements of the performance measure was the delivery of an
acceptable interim completion report by September 30, 1995.
According to available documentation, however, Kaiser-Hill did
not deliver an acceptable report to Rocky Flats until
November 6, 1995. Nonetheless, Kaiser-Hill received an incentive
fee of $257,851 for successful performance of this measure.

     In comments provided just prior to issuance of this report,
Rocky Flats stated that the delay in delivering the interim
completion report was not due to failure in performance on the
contractor's part. Instead the delay was due to Rocky Flats'
decision to extend the completion date so as not to incur
additional costs associated with meeting the original deadline of
September 30, 1995. However, Rocky Flats did not provide any
support for this position.

     In another example, on June 26, 1996, Rocky Flats and
Kaiser-Hill agreed to a performance measure to implement a
process for preparing and approving a "Justification for
Continued Operations." The performance period was to begin
July 1, 1996. Kaiser-Hill actually implemented the
"Justification for Continued Operations" process on
January 23, 1996, about five months before the related
performance measure was formulated and approved. This was
inconsistent with the fundamental principles of performance-based
contracting to: (1) set clearly defined expectations in advance
of the contractor work effort, and (2) reward the contractor
based on an objective evaluation of the work after completion.
Kaiser-Hill received a $160,000 incentive fee for this measure.

     Rocky Flats disagreed that performance occurred in January
and stated that although precursor activities were begun in
January, training was conducted at regular staff meetings during
the performance period. Further, Rocky Flats stated that
implementing the "Justification for Continued Operations"
procedure was not as important as implementing the "Operational
Safety Requirement/Technical Safety Requirements" procedure that
also was part of the performance expectation. However, Rocky
Flats was not able to produce documentation of the training that
took place during the staff meetings. Additionally,
documentation validating completion did not reference the
training that occurred during the performance period. Finally,
the performance criteria did not distinguish between the
importance of the two procedures but made the fee payment
contingent upon Kaiser-Hill implementing both procedures.

PROCESS-ORIENTED PERFORMANCE MEASURES

     The Kaiser-Hill contract contained two performance measures
which were process-oriented, not results-oriented. The first
measure required that Kaiser-Hill conduct a "summit meeting" with
cognizant federal and state regulatory agencies. The measure
described an acceptable level of performance as one where the
summit occurred by July 31, 1995, and superior level as one where
the summit was held by July 1, 1995. Convening meetings with
cognizant agencies appears to be a positive step in the effort to
communicate with regulatory bodies. However, as a purely process-
oriented performance measure, such meetings were given the status
of being an end unto themselves. The ultimate goal was to
restructure the regulatory approach to meeting environmental risk
reduction objectives. Thus, a results-oriented measure to
achieve regulatory restructuring would have stipulated the
intended outcome of the meetings along with a method for
evaluating the outcome. Such a results-oriented measure, for
example, might have required a revised regulatory agreement that
addressed specified objectives. Kaiser-Hill was paid a superior
performance fee of $317,098 for a series of meetings that began
in April 1995. Although this incentive fee may have been in
compliance with the literal terms of the contract, we concluded
that the performance-based contracting approach did not envision
giving contractors an incentive fee for simply convening
meetings.

     The Kaiser-Hill contract also established a performance
measure that required Kaiser-Hill to keep six buildings available
in Fiscal Year 1996 to allow certain risk reduction activities to
take place. Specifically, the space in those buildings dedicated
to risk reduction activities had to be available 65 percent of
the time for Kaiser-Hill to be eligible for the full incentive
fee. By basing the incentive fee on "keeping buildings
available," this performance measure focused on process rather
than outcome. As part of a results-oriented measure, the
Department should have focused its performance evaluation on
ensuring that the contractor's actions resulted in the successful
accomplishment of the risk reduction activities. In fact, the
audit disclosed that individual risk reduction activities were
themselves incentivized in the contract. Ultimately, Rocky Flats
paid Kaiser-Hill $1.7 million, or 83 percent of the possible fee,
for keeping five of the six buildings open. Yet, the measure did
not require that the risk reduction activities, the desired
outcome, be accomplished.

     Rocky Flats agreed that these were process-oriented
measures, but disagreed with the audits' assessment of their
value to the Department. Rocky Flats stated that the efforts
begun by Kaiser-Hill under the "regulatory summit" performance
measure ultimately resulted in the implementation of the Rocky
Flats Cleanup Agreement, which was widely recognized as a
milestone accomplishment in restructuring and improving the
Department's relationships with its regulators. Similarly, the
"building availability" measure had provided major value to the
Department, for it moved the percentage of time a facility was
available for completing mission related work from the historic
20-30 percent range to the 80-90 percent range.

     The Deputy Assistant Secretary for Procurement and
Assistance Management stated that establishing results-oriented
performance measures is a goal of performance-based contracting
but that there will be limited instances where it may be
important to associate fee with the accomplishment of critical
process objectives. We agree that there could be circumstances
that warrant rewarding process. It would be preferable, however,
to reward results, rather than process, when both the results and
the process are expected to occur in the same performance period.
Thus, if risk reduction activities are the desired result and are
incentivized for a performance period and building availability
is a prerequisite for the risk reduction activities to occur, any
financial incentive should be placed on accomplishing the risk
reduction activities rather than on keeping the buildings
available.

REASONS AWARDS WERE MADE

     We attempted to determine why Rocky Flats awarded
performance fees to Kaiser-Hill under the circumstances disclosed
during this review. We concluded that the new challenges
associated with performance-based contracting were a primary
cause. Historically, most of the Department's contracting
dollars were spent under the traditional management and operating
contract concept. These contracts contained a general work scope
and reimbursed essentially all of the contractor's costs. While
some of these contracts paid an award fee based on performance,
the amount of the fee was largely subjective. In contrast,
performance-based contracts were to have clearly defined scopes
of work, results-oriented criteria and measures, and incentives
for contractors to meet and exceed the criteria. The conceptual
change to performance-based contracts was significant, requiring
a substantial amount of preparation time and additional
experience. We observed that the ambitious implementation
schedule for performance-based contracting at the Rocky Flats
Site may not have been adequate to permit such action. Rocky
Flats, in essence, had to implement performance-based contracting
at the same time that it was learning the fundamentals of the
process, including the development of meaningful measures.

     Kaiser-Hill, rather than Rocky Flats, developed the
Fiscal Year 1995 performance measures as part of its "best and
final offer." The performance measures did not, in our judgment,
define or describe with any specificity the work requirements,
acceptance criteria, or completion documentation. In
October 1995, Rocky Flats issued an internal procedure on the
development of performance measures. This procedure established
rating plans to address the shortcomings of the Fiscal Year 1995
performance measures. Rocky Flats and Kaiser-Hill retroactively
applied the rating plans to the Fiscal Year 1995 performance
measures but full use of the rating plans did not go into effect
until Fiscal Year 1996. During Fiscal Year 1996, Rocky Flats
also consolidated responsibility for performance measure
development into one group, which conducted training for local
program personnel on how to write measures.

INCENTIVE FEES PAID TO KAISER-HILL

     The Department rewarded Kaiser-Hill for meeting performance
measures that did not always include clearly defined criteria,
were not structured to encourage and reward superior performance,
and were often process- rather than results-oriented. In
addition, the Department rewarded Kaiser-Hill for performance
that occurred before the effective date of the contract or
outside the performance period. The following table summarizes
the incentive fees of about $6.9 million paid to Kaiser-Hill for
meeting these measures.

                             TABLE 2
                Incentive Fees Paid to Kaiser-Hill

                                         Before
                               Not       Contract/
                               Clearly   Outside     Process-     Incentive
 Description of Performance    Defined   Period      Oriented     Fee
   Measure

 Vent 1,182 Residue Drums by      X                               $339,774
 Vent about 600 Residue Drums     X                               $666,353
       by 12/31/95
 Excess Property                  X                             $2,245,599
 Operational Safety               X
       requirements
            Reduce Violations in                                   $60,920
       Specified Buildings        X                               $584,240
            Self-identify         X
               Violations
            Justification for              X                      $160,000
               Continued Operations
       Reduce Contractor Work Force        X                      $558,021
         Force
       Conduct Regulatory Summit           X           X          $317,098
       Remove Ground Contaminants          X                      $257,851
       Contaminants
       Keep Specified Buildings                        X        $1,671,312
,312
         Available
                            Total                               $6,861,168
LESSONS LEARNED

     In moving to performance-based contracting, the Department
sought to attain its mission through superior contractor
performance. Contractor accountability was to be improved by
measuring and incentivizing contractor activity to provide better
operating results for taxpayer-provided funds. While the audit
disclosed certain concerns regarding the status of the
implementation of performance-based contracting at the Rocky
Flats Site, we noted that Rocky Flats has instituted a "lessons
learned" process. It has identified improvements to be made to
its performance-based contracting.

  o   Performance measures are to be written so that they focus
      on fewer, yet critically important matters, that are closely
      aligned with the strategy regarding the future of the Rocky
      Flats Site.

  o   Performance measures are to be structured so as to address
      results, not process.

  o   Performance measures are to discourage the inefficient use
      of resources by requiring that the work be done within budget.
      Cost parameters were defined for a set of pilot performance
      measures in Fiscal Year 1997. Performance must be achieved
      within specific budgets or fee is reduced or eliminated.

  o   "Gateway" performance measures are to be used that require
      one year's work to be done before incentives can be earned
      for the following year's work.

  o   Step earning curves, where incentives are paid based on
      achievement of specified performance levels rather than
      on a "straight line" basis, are to be used.

  o   Super Stretch performance measures, where potential fees
      are identified for activities not included within the
      established funding baseline, are to be used. In order to
      earn these fees, the contractor must first identify and
      reprogram resources by achieving efficiencies in funded
      work areas.

Such improvements would assist in the implementation of Contract
Reform at the Rocky Flats Site.

                              PART IV

                  MANAGEMENT AND AUDITOR COMMENTS

     The Deputy Assistant Secretary for Procurement and
Assistance Management concurred with the recommendations. The
Manager, Rocky Flats Field Office, concurred with two
recommendations and partially concurred with two others. Both
parties provided comments on specific matters contained in Parts
II and III of the report; in general, those comments have been
incorporated into their respective parts. Management memoranda,
without the detailed attachments, are provided in Appendices B
and C. A summary of the comments made with regard to the
recommendations and our responses follow.

COST REDUCTION INCENTIVES

Recommendation to the Deputy Assistant Secretary for Procurement
and Assistance Management

     Recommendation. We recommend that the Deputy Assistant
Secretary for Procurement and Assistance Management ensure that
Departmental contracts with cost reduction incentive programs
include provisions that require the cost reduction proposals to
be innovative and result in the return of hard dollar savings to
the Department's control.

     Management Comments. Concur. The Department's draft fee
policy, which is in final review prior to publication as a Notice
of Proposed Rulemaking, contains the requirement that any
contract which contemplates a cost savings program must contain
the "Cost Reduction" clause prescribed in the policy. The clause
requires that cost savings incentives return any realized savings
to the control of the Department. In addition, the clause
requires that design, method, or process cost reduction
incentives be innovative.

     Auditor Comments. Making the draft fee policy a contract
requirement is considered responsive to the recommendation.

Recommendation No. 1 to Rocky Flats

     Recommendation. We recommend that the Manager, Rocky Flats
Field Office, utilize the contract in conjunction with
Departmental guidance as a basis for accepting or rejecting cost
reduction proposals. Specifically, reject proposals that are not
innovative or do not result in hard dollar savings that are
returned to the Department's control.

     Management Comments. Concur. Management stated that it
recognized that there were problems associated with the existing
cost reduction incentive program and that Kaiser-Hill had also
voiced concerns about the program and expressed a desire to
reconsider the provisions of clause H.6. As a result, Rocky
Flats has engaged in discussions with the contractor to work
toward resolution of mutual concerns. Assuming continuance of
the cost reduction incentive program, Rocky Flats will initiate
negotiations to incorporate Departmental policy and guidance
prevailing at the time changes to the program are incorporated
into the contract. According to the Deputy Assistant Secretary
for Procurement and Assistance Management, this guidance will
require the rejection of proposals that are not innovative or do
not result in hard dollar savings that are returned to the
Government. It is estimated that negotiations will be completed
and a contract modification issued in December 1997.

     Auditor Comments. Rocky Flats' planned actions are
responsive to the recommendation.
Recommendation No. 2 to Rocky Flats

     Recommendation. We recommend that the Manager, Rocky Flats
Field Office, take action to recover the amounts paid to
Kaiser-Hill for cost reduction proposals that were not innovative
or did not return savings to the Department's control.

     Management Comments. Partially concur. Rocky Flats stated
that it would review the language of the Kaiser-Hill transition
and integrating contracts to ensure that Kaiser-Hill had not
received redundant compensation associated with the accelerated
work force reduction. If, as a result of the additional review,
it was determined that inappropriate compensation was paid to
Kaiser-Hill, Rocky Flats would seek recovery of such amounts
under Clause H.6., Cost Reduction Proposals, of the contract.
Rocky Flats planned to complete the review in January 1998.

     Rocky Flats also stated, however, that the recommendation
appeared to suggest that the Contracting Officer has a
contractual right to recover amounts paid to Kaiser-Hill for
approved cost reduction proposals that were not innovative or did
not return hard dollar savings to the Department's control.
Since neither of these items was a prerequisite for approval of
cost reduction proposals under contract Clause H.6., Cost
Reduction Proposals, the Department's Office of General Counsel
advised Rocky Flats that the Government would have no legal
grounds for recovery after approval of a cost reduction proposal
which met all other contract terms and conditions.

     Rocky Flats also stated that it was in the process of
validating the estimated cost savings related to the fringe
benefit proposal and that it would seek recovery of any amounts
determined to be inappropriately paid to the contractor. The
validation was expected to be completed by January 1988.

     Auditor Comments. Rocky Flats' planned actions to review
for redundant compensation and validate savings are appropriate.
However, it should be noted that $4.3 million, or 98 percent of
the total award amount paid out of program funds to Kaiser-Hill
in Fiscal Year 1996, was redundant compensation (that is, for
work force reduction efforts compensated under the fixed-price
transition contract). This is not, however, the only basis for
recovery. Another is the fact that Kaiser-Hill should not have
received a cost reduction award for work force reductions carried
out by another contractor, EG&G. Further, a precedent exists for
recovering awards. In an Office of Inspector General report
involving the Performance Based Incentive Program at the Richland
Operations Office (See Appendix A), we recommended recovery of
fee that was not warranted. Management took the necessary action
and the contractor agreed to a partial return of previously paid
fee. In summary, there is a Department of Energy precedent for
recovery of fee under these circumstances. Therefore, we believe
the Department should pursue this approach aggressively.

PERFORMANCE MEASURE INCENTIVES
Recommendation to the Deputy Assistant Secretary for Procurement
and Assistance Management

     Recommendation. We recommend that the Deputy Assistant
Secretary for Procurement and Assistance Management use the data
developed during this audit at the Rocky Flats Site as part of
its Departmentwide review of the performance-based contracting
incentives program to clarify Departmental guidance on developing
and executing performance measures.

     Management Comments. Concur. The information contained in
this audit report and Office of Inspector General Report entitled
"Inspection of the Performance Based Incentive Program at the
Richland Operations Office," will be used as part of the
Departmentwide review of performance-based contracting currently
being conducted be these offices.

     Auditor Comments. The proposed actions are considered
responsive to the recommendation.

Recommendation No. 1 to Rocky Flats

     Recommendation. We recommend that the Manager, Rocky Flats
Field Office, direct the Contracting Officer to establish
performance measures that are clearly defined using objective
data, structured to encourage and reward superior performance,
and are results- rather than process-oriented.

     Management Comments. Concur. Rocky Flats concurs with the
establishment of clearly defined performance measures as a tool
for focusing the attention of the contractor and Federal staff on
the critical few measures that incentivize the contractor to
concentrate on end results rather than interim process-oriented
measures. Over time, Rocky Flats has endeavored to improve its
processes to ensure that performance expectations are clearly
understood by staff responsible for monitoring performance and
the contractor as well. As with any process, there is generally
room for improvement, and Rocky Flats has been open to
suggestions resulting from the recent reviews of performance
incentives directed by the Secretary, and internal processes
designed to review lessons learned. Rocky Flats staff also have
participated in meetings sponsored by the Office of Procurement
and Assistance Management and the Fee Incentives and Analysis
Team established by the Office of Environmental Management to
establish guidelines for development of objective performance
incentives. Finally, Rocky Flats agrees that performance
incentives should primarily be objective and results-oriented
(but not solely objective and results-oriented). In some limited
circumstances, it may be appropriate to utilize performance
measures to improve certain processes of a critical nature
because in the long run it constitutes significant value to the
government.

     Auditor Comments. The proposed actions are considered
responsive to the recommendation. While we agree that there
could be circumstances that warrant rewarding process, it would
seem reasonable to reward results, rather than process, when both
the results and the process are expected to occur in the same
performance period.

Recommendation No. 2 to Rocky Flats

     Recommendation. We recommend that the Manager, Rocky Flats
Field Office, direct the Contracting Officer to review all
incentive fees paid and seek recovery of fees for performance
that occurred before the effective date of the contract or
outside of the measurement period.

     Management Comments. Partially concur. Rocky Flats does
not object to the recommendation to review all incentive fees
paid. A thorough review of the Fiscal Year 1997 performance
based incentives was conducted in June 1997 as part of the
Secretary s Performance Based Incentive Review. In those cases
in which it is determined that fees were inappropriately paid for
performance completion outside of the measurement period, Rocky
Flats will seek recovery or adjustments to fees paid. These
actions will be completed in December 1997.

     Rocky Flats noted, however, that the Federal Acquisition
Regulation (FAR) does not prohibit a contractor from beginning
performance prior to the contract effective date. This practice
is acceptable, as reflected by the cost principles in FAR 31.205-
32, which states that precontract costs are allowable to the
extent that they would have been allowable if incurred after the
date of the contract. For examples noted in the report, Kaiser-
Hill proposed the performance incentives in the best and final
offer submitted in March 1995. Performance against these
incentives did not begin until after the contract award date of
April 4, 1995. The fact that performance occurred prior to the
effective date of July 1, 1995, was not prohibited. Rocky Flats
noted that performance incentives must be established early
enough in the process to influence performance.

     Auditor Comments. Rocky Flats' planned actions to review
all incentive fees paid and seek recovery of fees paid for work
that was outside the measurement period are responsive to the
recommendation. However, we disagree that the fees paid for
performance before the effective date of the contract -- work
force restructuring and regulatory summit meetings -- do not
warrant further review. The integrating contract stipulated in
Clause B.6.(c), Performance Based Incentive Fee, that the
available incentive fee was for the period commencing on the
effective date of the contract, July 1, 1995. Because these
activities fell within the work scope of the transition contract,
work performed prior to July 1, 1995, Kaiser Hill was compensated
for this work under the transition contract. It would not,
therefore, appear to be eligible for performance fees under the
integrating contract.
                             PART V

                           APPENDICES

     Summary of Related Office of Inspector General Reports
   DOE/IG-0310, General Management Inspection of the Department
of Energy's Nevada Field Office, May 1992.

Part of the report covered the Nevada Field Office s (Nevada)
Productivity Incentive Fee Program. This incentive program
was designed to motivate the contractor, through incentives,
to identify initiatives that would result in an overall
increase in the efficiency and effectiveness of its operation.
The Office of Inspector General found that Nevada's
Productivity Incentive Fee Program was operated without clear
authorization and written documentation on how the program
should work. Of particular concern was the lack of policy and
guidance on how to verify contractor submitted cost savings
and where the funds to pay the incentive fees should come
from.

   DOE/IG-0352, Inspection of the Cost Reduction Incentive
Program at the Department of Energy's Idaho Operations Office,
July 1994.

This inspection reviewed the economy and efficiency of Idaho
Operation Office s (Idaho) Cost Reduction Incentive Program.
The program was supposed to motivate and provide incentive to
the contractors which would result in cost savings while
increasing the efficiency and effectiveness of their
operations. The report disclosed that: (1) Idaho officials
did not fully validate approved cost savings because of
difficulty with soft dollar savings; (2) hard dollar
savings were not deobligated and returned to the Department;
(3) a conflict of interest may have existed because
contractors might defer work to future periods to show cost
savings in the current period; (4) the program duplicated the
fees that contractors earn through their existing fee
provisions and value engineering programs; (5) the costs
savings could be a result of over budgeting (uncosted
balances); and (6) policies and procedures on cost reduction
incentives were needed

   DOE/IG-0401, Inspection of the Performance Based Incentive
Program at the Richland Operations Office, March 1997.

This inspection reviewed the Richland Operations Office's
(Richland) Performance Based Incentive Program. The report
showed that Richland did not always make the best use of the
incentive fees paid to the management and operating
contractor. The inspection found examples of incentive fees
paid that were (1) excessive when compared with the cost of
labor and material to perform the work, (2) for work that was
accomplished before Richland's program was established, (3)
for work that was not completed, and (4) for work that was
easily achieved by the contractor. There was also an instance
where the contractor compromised quality and safety in order
to earn an incentive fee. The report also contained a number
of administrative weaknesses and observations.

   DOE/IG-0350, Audit of Health Benefit Costs at the
Department's Management and Operating Contractors, June 1994.
     This audit reviewed the reasonableness of the Department's
     share of management and operating contractor benefit costs.
     According to the Department of Energy Acquisition Regulation,
     reasonableness was to be measured by comparing the
     contractor's benefit costs to the costs incurred by other
     firms and to costs incurred by the contractor's own private
     sector operations. The audit reported that the Department's
     share of contractor benefit costs was not reasonable based on
     either comparative measure. As a result, in Fiscal Year 1991
     the Department paid $15.4 million in excess of industry norms
     for health benefit costs at the six contractors audited, which
     included the management and operating contractor at the Rocky
     Flats Site.




                             July 17, 1997



MEMORANDUM FOR         REGIONAL MANAGER
                       WESTERN REGIONAL AUDIT OFFICE
                       OFFICE OF INSPECTOR GENERAL

FROM:                  RICHARD H. HOPF
                       DEPUTY ASSISTANT SECRETARY FOR
                       PROCUREMENT AND ASSISTANCE MANAGEMENT

SUBJECT:               DRAFT REPORT ON "AUDIT OF PERFORMANCE FEES
                       AND COST SAVINGS AWARDS AT ROCKY FLATS"


I appreciate the opportunity to review and comment on the
official draft report on the "Audit of Performance Fees and Cost
Savings Awards at Rocky Flats." The report will be helpful in
developing an overall assessment of the Department of Energy's
usage of performance-based contracting incentives.

Regarding the specific recommendations contained in the draft
audit report which are addressed to me, I would concur as
follows:

1.      Recommendation: We recommend that the Deputy Assistant
        Secretary for Procurement and Assistance Management ensure
        that Departmental contracts with cost reduction incentive
        programs include provisions that require the cost reduction
        proposals to be innovative and result in the return of hard
        dollar savings to the Department's control.

        Response: The Department s draft fee policy, which is in
        final review prior to publication as a Notice of Proposed
        Rulemaking (NOPR), contains the requirement that any
        contract which contemplates a cost savings program must
        contain the Cost Reduction clause prescribed in the
        policy. That clause requires that cost savings incentives
         must return any realized savings to the control of the
         Department. In addition, the clause requires that design,
         method, or process cost reduction incentives be innovative.
         The language contained in the draft clause refines the 1995
         guidance on this subject and is, therefore, viewed as
         responsive to your recommendation. (Clause is attached.)

                                                                   2

2.       Recommendation: We recommend that the Deputy Assistant
         Secretary for Procurement and Assistance Management use the
         data developed during this audit at the Rocky Flats Site as
         part of its Department-wide review of the performance-based
         contracting incentives program to clarify Departmental
         guidance on developing and executing performance measures.

         Response: I concur in the recommendation. The information
         contained in the draft audit report as well as that
         information contained in the audit report entitled
          Inspection of the Performance-Based Incentive Program at
         the Richland Operations Office will be used as part of the
         Department-wide review of performance-based contracting
         currently being conducted by these offices.

The review of the Department's performance-based incentives is
scheduled to be completed in the near future. The review has
identified some systemic problems and their causes. Many of
these problems are the result of the rapid transition the
Department undertook as part of Contract Reform to move from ill-
defined performance objectives and subjective performance
incentives to more specific results-oriented expectations and
more objectively determined fees. As part of the initial site
reviews, the review teams have provided feedback to the
Operations Offices concerning areas of needed improvement to be
applied in the development of the FY98 performance measures and
incentives. Additional areas for improvement identified during
the completion of the review will also be provided to the
Operations Offices.

Based on the information gathered and analysis to date, I have
decided to direct the following actions pending the completion
of the performance-based incentive review:

     o   Operations Offices shall establish a senior management
         team to perform an integrated review of all performance
         incentives prior to their being finalized.

     o   Cost Reduction/Cost Savings incentives, in order to be
         considered for review, must meet the minimum conditions
         and principles set forth in guidance to be published by
         my office and as contained in the "Cost Reduction" clause
         of the draft fee policy.

     o   Performance incentives, including Cost Reduction/Cost
         Savings incentives shall be subject to Headquarter's
         review and approval until lessons learned and remedial
         guidelines have been implemented.
  o     As necessary, negotiations will be undertaken with the
        site contractors to either modify Cost Reduction/Cost
        Savings incentive provisions consistent with Departmental
        guidelines or discontinue their application.

                                                          3

I would like to make one general observation on the draft report.
I understand that it is the purpose of these audit reports to be
critical, and, in many cases, your observations help form the
basis for initiatives to improve deficient practices or
processes. However, this focus sometimes causes the reader to
lose sight of the more positive affects of the Department's
attempts to move off the status quo regarding management and
operating contracts. Although implementation of performance-
based contracting and the use of incentives can and will be
improved, it appears to us that, overall, the contract at Rocky
Flats has been quite successful. As compared to prior contractor
performance, measurable achievements under the current contract
reflect significant improvement.

With respect to the specific findings and comments contained in
the draft report, we offer a number of comments/suggestions for
review. They are also attached.

Attachment

NOTE: The attachment contained detailed valuable information
which has been incorporated into the body of the text or in Part
IV. Because of the volume of text in the various attachments,
they have not been included in this report.


DOE F 1325.8

United States Government                   Department of Energy
memorandum                                 Rocky Flats Field Office

DATE:     July 15, 1997

REPLY TO
ATTN OF:     FCFO:GGD:08023

SUBJECT:     Office of Inspector General Official Draft Report -
             Audit of Performance Fees and Cost Savings Awards at
             Rocky Flats

  TO:        Gregory H. Friedman, Deputy Inspector General for
             Audit Services, IG-30

          Thank you for the opportunity to review and comment on
          the subject draft report, "Audit of Performance Fees and
          Cost Savings Awards at Rocky Flats." We appreciate your
          review of these programs at the Rocky Flats Environmental
          Technology Site (Site). We believe the information
          contained in the draft report, in conjunction with the
comprehensive site reviews directed by the Secretary of
all performance-based contracts, and the Site's own
efforts for continuous improvement will be helpful in
improving the incentive fee program and the cost
reduction incentive program at Rocky Flats. Many of the
issues identified in the draft report had already been
identified by Rocky Flats Field Office (RFFO) through our
own internal reviews prior to the audit.

The draft report contained recommendations for the
Manager of the Rocky Flats Field Office as well as the
Deputy Assistant Secretary for Procurement and Assistance
Management. We have worked in close collaboration with
the Deputy Assistant Secretary for Procurement and
Assistance Management and representatives of the Office
of Environmental Management in reviewing the Inspector
General's draft report and its recommendations. This
response deals with only those recommendations directed
to the RFFO. The Deputy Assistant Secretary for
Procurement and Assistance Management will submit a
separate response on recommendations directed to him.

It is generally conceded that the Department faced major
challenges in moving to expeditiously implement contract
reform and introduce dramatic changes designed to modify
contracting practices which had been in effect for
decades. While recognizing the need for further
improvement, RFFO believes strongly that performance-
based contracting (with its focus on results) has been an
important tool in accomplishing the Department's goal of
accelerated cleanup. Our experience indicates that there
have been improvements in performance as a result of
instituting a performance-based integrating contract at
Rocky Flats compared to accomplishments in previous years

                          2
Gregory H. Friedman                          July 15, 1997
97-RF-08023

under a management and operating contract. One need only
go back to FY 1995 and compare what we were able to
accomplish then to what we accomplished in FY 1996 to
see a significant difference which includes:

o   Substantially more work has been accomplished
    notwithstanding major reductions in staffing levels
    and a budget reduction of over $100 million per year;

o   Considerable improvement, as measured by objective
    criteria in safety performance; and

o   Consistent and more predictable contractor performance.

Experience and insights gained by RFFO and DOE in
administering this type of contract are expected to lead
to continued improvements, greater productivity and
additional increases in the "real work" related to
expediting Site closure.   Some of the enhancements and
innovative measures taken by RFFO were recognized and
cited in the draft report. These enhancements and other
actions taken to improve overall performance include:

o   A more collaborative approach to development of performance
    measures and incentives, involving appropriate RFFO site
    managers and Headquarters organizations, to ensure that
    performance incentives are concentrated on the "critical
    few" measures that will advance the ultimate goal of Site
    closure;

o   Establishment of "gateways," requiring that the contractor
    perform all work in a performance area prior to earning
    fees for related performance incentives in a subsequent
    period;

o   Initiatives to improve cost monitoring and control to
    ensure that work is performed within budgeted costs and
    established schedules;

o   Development of formal validation procedures for ensuring
    that incentivized work is performed within established
    parameters and criteria prior to authorizing payment;

o   Modifications to existing procedures for development of
    performance measures to reflect lessons learned and to
    ensure that performance incentives are in compliance with
    established Site guidelines; and

                          3
Gregory H. Friedman                          July 15, 1997
97-RF-08023

o   Improved lines of communication between all parties
    involved in the development, issuance, monitoring, and
    validation of performance measures.

Specific comments and responses to the draft report are
attached. I especially want to highlight my concern with
the draft report's assertion that Rocky Flats had to
reduce program funding by nearly $4.4 million in fiscal
year 1996 because Kaiser-Hill did not return "hard
dollar" savings to the Department. The report suggests
that the Government did not receive any benefit as result
of the accelerated workforce reduction and fringe benefit
cost reduction efforts.

I believe the available evidence supports the conclusion
that the total savings for these two efforts
(approximately $15.5 million based on preliminary
estimates) were real savings, of which $4.8 million was
paid to Kaiser-Hill in FY 1996. The remainder was
allocated to other work during the fourth quarter of FY
1995, as Kaiser-Hill operated against the existing
baseline established under the previous contractor, and
in FY 1996, when Kaiser-Hill reflected the savings in the
          new baseline which they submitted. The RFFO's review and
          acceptance of the revised baseline indicated an
          acceptance of the proposed reallocation, which complies
          with the intent of the Departmental guidance for the
          return of savings to DOE control. While RFFO could have
          exerted greater efforts to more clearly identify and
          segregate the reallocation of savings, the savings were
          real and the Department received the benefit of reduced
          personnel costs which were applied to additional work in
          FY 1995, FY 1996 and FY 1997.

          If you have any questions concerning this response,
          please contact me directly at (303) 966-2025 or Jerry
          Duffy at (303) 966-4264.



                                               Jessie M. Roberson
                                               Manager


          Attachment:
          RFFO Comments on Official Draft Report

NOTE: The attachment contained detailed valuable information
which has been incorporated into the body of the text or in Part
IV. Because of the volume of text in the various attachments,
they have not been included in this report.

                                IG Report No.__DOE/IG-0411




                      CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing
interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible
to our customers' requirements, and therefore ask that
you consider sharing your thoughts with us. On the
back of this form, you may suggest improvements to
enhance the effectiveness of future reports. Please
include answers to the following questions if they are
applicable to you:

     1.      What additional background information
             about the selection, scheduling, scope,
             or procedures of the audit or inspection
             would have been helpful to the reader in
             understanding this report?

     2.      What additional information related to
             findings and recommendations could have
             been included in this report to assist
             management in implementing corrective
          actions?

     3.   What format, stylistic, or organizational
          changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of
          Inspector General have taken on the issues
          discussed in this report which would have
          been helpful?

Please include your name and telephone number so that
we may contact you should we have any questions about
your comments.

Name ____________________________   Date_____________________

Telephone _______________________   Organization_____________

When you have completed this form, you may telefax it
to the Office of Inspector General at (202) 586-0948,
or you may mail it to:

     Office of Inspector General (IG-1)
     U.S. Department of Energy
     Washington, D.C. 20585
     ATTN: Customer Relations

If you wish to discuss this report or your comments
with a staff member of the Office of Inspector General,
please contact Wilma Slaughter at (202) 586-1924.




_______________________________
1 The Kaiser-Hill contract allows cost savings to be calculated
over a two-year period. Departmental guidance limits cost saving
calculations to one year.

2 In Fiscal Year 1996, Rocky Flats paid Kaiser-Hill over $541,873
of its $1.14 million share before final validation of the
estimated savings. In contrast, Departmental guidance states
that the contractor's share of any savings should not be paid
until after the savings are validated and returned to the
Department for disposition.

3 Subsequent to our fieldwork, Rocky Flats reversed its decision
on one of the three cost reduction proposals initially rejected
because Department direction was deemed insufficient grounds for
a rejection.

4 Kaiser-Hill returned $612,000 through a baseline change
proposal. However, Rocky Flats' financial review reduced this
amount due to inaccuracies in estimated savings and
implementation costs.
5 Performance measure incentive fees shown as being awarded to
Kaiser-Hill include incentive fees that Kaiser-Hill awarded to
its subcontractors and ultimately billed to the Department.

6 The fee for the Fiscal Year 1996 performance measure exceeded
the fee for the Fiscal Year 1995 performance measure because
Rocky Flats negotiated the fees using different fee pools and a
different number of measures.

7 The meetings are also discussed in subsequent paragraphs under
"Process-Oriented Performance Measures."
